certificate or service
I, Razhden Shulaya, do hereby certify under penalty of perjury, pursuant to 28 U.S.C. Section 1746, that I have this same
day served a true and correct copy of the attached "Petition for Writ of Certiorari" by mailing such using the U.S.P. Hazelton
Legal Mail and the United States Postal Service, with First Class prepaid postage affixed, to the following address:
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Dated and signed this
Razhden eh
14-048
U.S.P. Hazelt6n
—
P.O.Box 2000
Bruceton Mills, WV 26525

>:

7

Additional material
from this filing is
available in the
Clerk's Office.

